<html>
<title> - RESTORING U.S. LEADERSHIP IN WEATHER FORECASTING PART I</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       RESTORING U.S. LEADERSHIP
                         IN WEATHER FORECASTING
                                 PART I

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, MAY 23, 2013

                               __________

                           Serial No. 113-32

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
81-196                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        JULIA BROWNLEY, California
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARC VEASEY, Texas
PAUL C. BROUN, Georgia               MARK TAKANO, California
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
                                     EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                         Thursday, May 23, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    10

                               Witnesses:

Mr. Barry Myers, Chief Executive Officer, AccuWeather
    Oral Statement...............................................    14
    Written Statement............................................    17

Mr. Jon Kirchner, President, GeoOptics
    Oral Statement...............................................    29
    Written Statement............................................    31

Discussion.......................................................    37

             Appendix I: Answers to Post-Hearing Questions

Mr. Barry Myers, Chief Executive Officer, AccuWeather............    50

Mr. Jon Kirchner, President, GeoOptics...........................    56

            Appendix II: Additional Material for the Record

Revised submission from GeoOptics, Inc., submitted by Mr. 
  Kirchner.......................................................    72

GeoOptics, Inc. closing comments, submitted by Mr. Kirchner......    76


                       RESTORING U.S. LEADERSHIP
                         IN WEATHER FORECASTING
                                 PART I

                              ----------                              


                         THURSDAY, MAY 23, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Chris 
Stewart [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T1196.001

[GRAPHIC] [TIFF OMITTED] T1196.002

[GRAPHIC] [TIFF OMITTED] T1196.003

[GRAPHIC] [TIFF OMITTED] T1196.004

[GRAPHIC] [TIFF OMITTED] T1196.005

[GRAPHIC] [TIFF OMITTED] T1196.006

[GRAPHIC] [TIFF OMITTED] T1196.007

    Chairman Stewart. The Subcommittee on Environment will come 
to order.
    Good morning, everyone. Welcome to today's hearing entitled 
``Restoring U.S. Leadership in Weather Forecasting.'' In front 
of you are packets containing the written testimony, 
biographies and Truth in Testimony disclosures for today's 
witness panels, and I now recognize myself for five minutes for 
an opening statement.
    First, let me say, diverting from prepared comments for 
just a little bit, that our thoughts and prayers are with the 
people of Oklahoma, and I think this tragedy highlights the 
importance of real-time forecasting to protect lives and 
property.
    I would like to thank our excellent witness panel as well 
for traveling here today, and while this hearing was scheduled 
several weeks ago to discuss draft legislation to help enhance 
weather forecasting, the tragedy in Oklahoma once again 
underscores the importance of this issue and should encourage 
us to start tackling these questions today.
    It is unfortunate that the National Oceanic and Atmospheric 
Administration is unable to testify in-person. However, as the 
Ranking Member and I have just discussed, we will be asking 
Acting Administrator Kathy Sullivan to submit comments for the 
record, and we will work to accommodate her in-person testimony 
on these issues some time very soon.
    We need a world-class system of weather prediction in the 
United States--one, as the National Academy of Sciences 
recently put it, that is ``second to none.'' We can thank the 
hardworking men and women of the National Oceanic and 
Atmospheric Administration, or NOAA, and their partners 
throughout the weather enterprise for the great strides that 
have been made in forecasting in recent decades. But the 
reality is, is that we can do better. And it is not enough to 
blame failures on programming or sequestration or lack of 
resources. As Moore, Oklahoma, has demonstrated, we have to do 
better. But the good news is that we can.
    Superstorm Sandy made clear what many in the weather 
community have known for years: Our model for weather 
prediction has fallen behind Europe and other parts of the 
world in predicting weather events in the United States. The 
Weather Forecasting Improvement Act, draft language our 
witnesses will be discussing today, would build upon the down 
payment made by Congress following this storm toward restoring 
the United States as a leader in this field through expanded 
computing capacity and data assimilation techniques.
    The people of Moore, Oklahoma, received a tornado warning 
16 minutes before the twister struck their town. Tornado 
forecasting is difficult but lead times for storms have become 
gradually better. The draft legislation would prioritize 
investments in technologies like multi-phased array radar, 
technology being developed at NOAA's National Severe Storms 
Laboratory in Oklahoma, which has, and I am quoting, ``the 
potential to provide revolutionary improvements in tornado 
warning lead times and accuracy, reducing false alarms'' and 
could move us toward the goal of being able to warn on 
forecast.
    We have seen the devastating effects that severe weather 
can have in this country, and this bill would establish a 
priority mission for all of NOAA to improve forecasts and 
warnings to protect lives and property. Recent studies suggest 
that even routine weather variability every year can have an 
impact on a large portion of the economy with hundreds of 
billions of dollars in consequences.
    The Weather Forecasting Improvement Act is based upon a 
number of recommendations received in the last Congress, and 
let me tell you what this bill will do. As the country faces 
severe satellite data gaps, it would encourage NOAA to 
systematically conduct cost-benefit assessments to ensure that 
we are getting the most bang for our buck in acquiring and 
procuring a mix of critical space-, air- and ground-based 
observational data. As Dr. Berrien Moore, Director of the 
National Weather Center at the University of Oklahoma, 
explained to this Subcommittee, ``NOAA needs to do a better job 
of conducting quantitative assessments on data use, cost, and 
value.''
    This draft would help remove barriers to NOAA's cooperation 
with parts of the weather enterprise, including upstream data 
options and downstream, value-added forecasting capabilities 
from the private sector. As Dr. David Crain, President and CEO 
of GeoMetWatch, a company looking to develop critical sounding 
observations from a constellation of satellites, stated ``a 
commercial approach can provide the needed data years earlier 
and with minimal cost and risk.'' It would balance NOAA's 
research portfolio by emphasizing weather research with the 
potential to protect lives and property. In 2012, NOAA barely 
spent one-third of the resources on weather research as it did 
on climate research.
    And finally, the language would dedicate resources to 
transition next generation research into operational 
forecasting. As NOAA's Science Advisory Board stated last 
month, ``Unless science is transitioned into operations, NOAA 
will fail in this mission.''
    Unfortunately, NOAA was unable to testify in-person this 
morning, but we will be providing the Subcommittee with 
comments--I am sorry--they will be providing the Subcommittee 
with comments on forecasting improvements, and we look forward 
to their feedback informing this legislation and their future 
testimony on this and other topics.
    I look forward to discussing these absolutely critical 
issues with our witnesses today, and learning about how we can 
restore U.S. leadership in weather forecasting.
    [The prepared statement of Mr. Stewart follows:]

       Prepared Statement of Subcommittee Chairman Chris Stewart

    Good morning and welcome to this morning's Environment Subcommittee 
hearing entitled ``Restoring U.S. Leadership in Weather Forecasting.''
    First, let me say that our prayers are with the people of Oklahoma. 
This tragedy highlights the importance of real time forecasting to 
protect lives and property.
    I'd like to thank our excellent witnesses for traveling to be here 
today. While this hearing was scheduled several weeks ago to discuss 
draft legislation to help enhance weather forecasting, the tragedy in 
Oklahoma underscores the importance of this issue and should encourage 
us to start tackling these questions now. It is unfortunate that the 
National Oceanic and Atmospheric Administration is unable to testify 
in-person today; however, we have asked Acting Administrator Kathy 
Sullivan to submit comments for the record and we will work to 
accommodate her in-person testimony on these issues next month.
    We need a world-class system of weather prediction in the United 
States--one, as the National Academy of Sciences recently put it, that 
is ``second to none.'' We can thank the hard-working men and women at 
the National Oceanic and Atmospheric Administration, NOAA, and their 
partners throughout the weather enterprise for the great strides that 
have been made in forecasting in recent decades.
    But we can do better.
    Superstorm Sandy made clear what many in the weather community have 
known for years: Our model for weather prediction has fallen behind 
Europe and other parts of the world in predicting weather events in the 
United States. The Weather Forecasting Improvement Act, draft language 
our witnesses will be discussing today, would build upon the down 
payment made by Congress following this storm toward restoring the U.S. 
as a leader in this field through expanded computing capacity and data 
assimilation techniques.
    We can do better.
    The people of Moore, Oklahoma received a tornado warning 16 minutes 
before the twister struck their town. Tornado forecasting is difficult 
and lead times for storms have become gradually better. The draft 
legislation would prioritize investments in technologies like multi-
phased array radar, technology being developed at NOAA's National 
Severe Storms Laboratory in Oklahoma, which ``has the potential to 
provide revolutionary improvements in. tornado. warning lead times and 
accuracy, reducing false alarms'' and could move us toward the goal of 
being able to ``warn on forecast.''
    We can do better.
    We have seen the devastating effects that severe weather can have 
on this country, and this bill would establish a priority mission for 
all of NOAA to improve forecasts and warnings to protect lives and 
property. Recent studies suggest that even routine weather variability 
every year can have impact a large portion of the economy with hundreds 
of billions of dollars in consequences.
    We can do better.
    The Weather Forecasting Improvement Act is based upon a number of 
recommendations received last Congress--As the country faces serious 
satellite data gaps, it would encourage NOAA to systematically conduct 
cost-benefit assessments to ensure that we are getting the most bang 
for our buck in acquiring and procuring a mix of critical space-, air-, 
and ground-based observational data. As Dr. Berrien Moore, Director of 
the National Weather Center at the University of Oklahoma, explained to 
this Subcommittee, ``NOAA needs to do a better job in conducting 
quantitative assessments on data use, cost, and value.''
    This draft would help remove barriers to NOAA's cooperation with 
parts of the weather enterprise, including upstream data options and 
downstream, value-added forecasting capabilities from the private 
sector. Dr. David Crain, President and CEO of GeoMetWatch, a company 
looking to develop critical sounding observations from a constellation 
of satellites, stated that ``a commercial approach can provide the 
needed data years earlier and with minimal cost and risk.''
    It would balance NOAA's research portfolio by emphasizing weather 
research with the potential to protect lives and property. In 2012, 
NOAA barely spent one-third of the resources on weather research as it 
did on climate research.
    This language would dedicate resources to transition next 
generation research into operational forecasting. As NOAA's Science 
Advisory Board stated last month, ``Unless. science is transitioned 
into operations. NOAA will fail in its mission.''
    Unfortunately, NOAA was unable to testify in-person this morning, 
but they will be providing the Subcommittee with comments on 
forecasting improvements, and we look forward to their feedback 
informing this legislation and their future testimony on this and other 
topics.
    I look forward to discussing these absolutely critical issues with 
our witnesses today, and learning about how we can restore U.S. 
leadership in weather forecasting.
    I yield back the balance of my time, and recognize Ranking Member 
Bonamici for an opening statement.
    Chairman Stewart. With that, I yield my time, and recognize 
the Ranking Member, Ms. Bonamici, for an opening statement.
    Ms. Bonamici. Thank you very much, Chairman Stewart, and 
welcome to our witnesses, Mr. Myers and Mr. Kirchner. I want to 
thank you for appearing here to provide your insights regarding 
weather data and weather forecasting.
    I join the Chairman in saying that our thoughts and prayers 
go out to all of the victims of the powerful and devastating 
tornado that just days ago swept through the State of Oklahoma. 
All of us have been moved by this event and the courageous 
efforts of the community. The event is a painful reminder that 
we are all vulnerable to unexpected disasters, and it also 
highlights how critical the work of the National Weather 
Service is as a public safety tool.
    And that leads us to the purpose of today's hearing. The 
National Oceanic and Atmospheric Administration--NOAA--has an 
expansive mission: to predict the weather, to ensure healthy 
oceans and fisheries, to address climate mitigation and 
adaptation, and to enhance the resilience of our coastal 
communities and economies. To carry out all of these missions, 
NOAA must manage a very broad set of scientific challenges and 
look for ways to incorporate the findings of research into the 
daily lives of all our citizens.
    In recent years, our Nation has experienced harsher 
climactic conditions and a wave of severe weather. From 
unprecedented heat waves and droughts, to severe record-
breaking weather events across this country, we have received 
constant reminders of the importance of accurate and timely 
weather prediction.
    Good weather prediction, however, doesn't just happen. It 
requires collection of the appropriate data, and our 
understanding of what is useful evolves over time. It also 
requires us to conduct scientific research to understand the 
physical processes that drive short- and long-term weather 
conditions.
    Unfortunately, the draft legislation that we are 
considering today includes little or no acknowledgment of 
NOAA's other missions carried out by the Office of Oceanic and 
Atmospheric Research, particularly with regard to its climate 
and ocean research. Although my colleagues across the dais 
might not always agree on every issue around climate and ocean 
science, sacrificing these critical areas will only weaken us 
for the future. Understanding the climate is as critical to 
public protection as understanding the weather.
    It is unfortunate that NOAA could not be here today. They 
received 10 days ago on May 13 a letter from the Chairman. It 
is my understanding that a copy of the draft bill was given to 
the agency at that time. That did not give them enough time for 
the agency to evaluate a bill, compose testimony, and then 
clear that testimony through OMB.
    Also, I want to point out that NOAA just released their 
Weather Ready Nation Roadmap last month after they spent more 
than a year preparing the report and seeking public input. 
Additionally, there have been four outside reviews of NWS and 
NOAA R&D in the last year, two by the National Academies of 
Science, one by the National Academy of Public Administration, 
and one done for the NOAA Science Advisory Board. These reports 
address key issues like how to move from research to operation; 
the need for NOAA to more actively tap the modeling and 
forecasting expertise in the research community; and the 
divisions within NWS and between NWS and OAR.
    The draft legislation does not address all these relevant 
issues but they need to be considered. It would be both 
appropriate and beneficial for this Subcommittee to receive 
testimony about these reports before we move to mark up a bill. 
We can work together in this area if we have complete 
information, which requires a more complete Committee record 
than today's hearing will yield.
    As I indicated to the Chairman, the minority submits that 
the importance of weather forecasting and the work of NOAA are 
so important that we are invoking our Rule XI right to ask for 
a second day of witnesses, and I am attaching that letter to my 
statement for inclusion in the record, and I appreciate the 
Chairman's cooperation in that regard.
    I am sure we can work together, Mr. Chairman, to find a 
date and time and a range of expert witnesses who can help us 
craft strong legislation that will improve weather forecasting 
for the nation. I look forward to working with you, Mr. 
Chairman, and the Committee Members in this critically 
important area.
    Thank you very much again for appearing before us, and I 
look forward to an informative discussion today. Thank you, Mr. 
Chairman, and I yield back.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee Ranking Member Suzanne Bonamici

    Thank you, Chairman Stewart. And welcome to the witnesses, Mr. 
Meyers and Mr. Kirchner. I want to thank you for appearing here to 
provide your insights regarding weather data and weather forecasting.
    My thoughts and prayers go out to all of the victims of the 
powerful and devastating tornado that just days ago swept through the 
state of Oklahoma. All of us have been moved by this event and the 
courageous efforts of the community. This event is a painful reminder 
that we are all vulnerable to unexpected disasters, and it also 
highlights how critical the work of the National Weather Service is as 
a public safety tool.
    And that leads us to the purpose of today's hearing. The National 
Oceanic and Atmospheric Administration (NOAA) have an expansive 
mission: to predict the weather, to insure healthy oceans and 
fisheries, to address climate mitigation and adaptation, and to enhance 
the resilience of our coastal communities and economies.
    To carry out all of these missions, NOAA must manage a very broad 
set of scientific challenges and look for ways to incorporate the 
findings of research into the daily lives of all our citizens.
    In recent years, our nation has experienced harsher climactic 
conditions and a wave of severe weather. From unprecedented heat waves 
and droughts to severe record-breaking weather events across the 
country, we have received constant reminders of the importance of 
accurate and timely weather prediction.
    Good weather prediction, however, doesn't just happen. It requires 
collection of the appropriate data, and our understanding of what is 
useful evolves over time. It also requires us to conduct scientific 
research to understand the physical processes that drive short- and 
long-term weather conditions.
    Unfortunately, the draft legislation that we are considering today 
includes little to no acknowledgment of NOAA's other missions carried 
out by the Office of Oceanic and Atmospheric Research, particularly 
with regard to its climate and ocean research. Although my colleagues 
across the dais might not always agree on every issue around climate 
and ocean science, sacrificing these critical areas will only weaken us 
for the future. Understanding the climate is as critical to public 
protection as understanding the weather.
    It's unfortunate that NOAA could not be here today. They were 
invited just 10 days ago on May 13 by a letter from the Chairman. It is 
my understanding that a copy of the draft bill was given to the agency 
at that time. Six working days is simply not enough time for an agency 
to evaluate a bill, compose testimony, and then clear that testimony 
through OMB.
    Also, NOAA just released their ``Weather Ready Nation Roadmap'' 
last month, after they spent more than a year preparing the report and 
seeking public input. Additionally, there have been four outside 
reviews of NWS and NOAA R&D in the last year-two by the National 
Academies of Science, one by the National Academy of Public 
Administration, and one done for the NOAA Science Advisory Board. These 
reports address key issues like how to move from research to 
operations; the need for NOAA to more actively tap the modeling and 
forecasting expertise in the research community; and the divisions 
within NWS and between NWS and OAR.
    The draft legislation does not address all these relevant issues 
but they need to be considered. It would be both appropriate and 
beneficial for this Subcommittee to receive testimony about these 
reports before we move to markup a bill. We can work together in this 
area if we have more complete information, which requires a more 
complete Committee record than today's hearing will yield.
    As I indicated to the Chairman, the minority submits that the 
importance of weather forecasting and the work of NOAA are so important 
that we are invoking our Rule XI right to ask for a second day of 
witnesses. I am attaching that letter to my statement for inclusion in 
the record.
    I am sure we can work together, Mr. Chairman, to find a date and 
time and a range of expert witnesses who can help us craft strong 
legislation that will improve weather forecasting for the nation. I 
look forward to working with you Mr. Chairman in this critically 
important area.

    Chairman Stewart. Thank you, Ms. Bonamici, and regarding 
your request, once you have provided us with the written 
request, we will certainly review it, and we look forward to 
working with you on that.
    Okay. If there are Members who wish to submit opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses. Our 
first witness today is Mr. Barry Myers, Chief Executive Officer 
for AccuWeather Incorporated. He previously served as 
AccuWeather's Executive Vice President and General Counsel. Mr. 
Myers has served as Special Advisor to three separate directors 
of the National Weather Service and is a Professional Member of 
the American Meteorological Society. He also currently serves 
on the Environmental Information Services Working Group for 
NOAA Science Advisory Board.
    Our next witness today is Mr. Jon Kirchner, President and 
Chief Operating Officer of GeoOptics. Previously, Mr. Kirchner 
has held senior executive positions for large satellite 
communication companies, Loral Space and Communications, and 
Arqiva Satellite and Media. Mr. Kirchner has worked to develop 
long-term space-based infrastructure for data networking, Earth 
observations and sensing, and information management systems.
    As our witnesses should know, spoken testimony is limited 
to five minutes after which the Members of the Committee will 
have five minutes each to ask questions, and I now recognize 
Mr. Myers for five minutes to present his testimony.

    TESTIMONY OF MR. BARRY MYERS, CHIEF EXECUTIVE OFFICER, 
                          ACCUWEATHER

    Mr. Myers. Thank you for inviting me to speak today, and to 
the families and friends of those who lost loved ones on Monday 
in Oklahoma and to those who suffered injury and other loss, I 
can only offer my condolences and a hope that today's hearing 
will contribute to improved warnings of severe weather.
    The United States has the most violent and challenging 
weather on Earth: tornados and hurricanes, lightning and hail, 
snow and ice and floods, to name a few. The United States has 
more tornados than any nation. In fact, we have four times the 
number that all of Europe has.
    On Monday, NOAA's National Weather Service provided about 
16 minutes of warning before the tornado touched down, and 
actually over 30 minutes before it reached Moore. The agency 
and the people of the National Weather Service did an 
outstanding job.
    There can be no doubt without those warnings the toll would 
have been much worse. Mike Smith in his book ``Warnings'' 
points out the huge progress made in tornado forecasting since 
the 1950s. But we can and must do more relative to severe 
weather. People should not live in fear in America's 
heartlands, in its cities and along its coasts. With enhanced 
modeling, perhaps we might have known hours in advance exactly 
where the tornado would form, where it would touch down, how 
monstrous it would grow, and its exact path.
    Imagine being able to tell people an hour or two in advance 
to move out of the zone of danger and have them watch the 
tornado from miles away. Is it a pipe dream? This year marks 
the 50th anniversary of AccuWeather's creation. Fifty years 
ago, weather forecasting was more art than science. A tornado 
might form at night in the darkness unknown to those in its 
deadly path, and no radar was there to help a forecaster spot a 
hook echo.
    A storm like Hurricane Sandy without a weather satellite 
would have thought to have moved away out into the ocean only 
to return as a surprise, much like the great Galveston 
hurricane of 1900 that no one knew was coming because there 
were no eyes in the sky.
    In the United States, the National Weather Service and 
America's weather industry and the academic and research 
communities each have important and complementary roles to 
play. It is a unique and special partnership and a benefit to 
the Nation. The United States government collects and 
disseminates data from local and remote sensing platforms, runs 
forecast models and prepares and makes special warnings. 
Weather companies and academic and research institutions use 
this information and also collect and disseminate data and make 
weather forecasts and warnings, some specific and tailored and 
some for the general public.
    The joint system of public and private cooperation helps to 
save countless lives and prevent hundreds of millions of 
dollars in property damage a year in the United States. In 
fact, it has a name: the Public/Private Partnership. And it has 
been held up as a model by other Federal agencies and even a 
recent Executive Order mentioned it this month.
    In 1962, if I had told anyone that a company named 
AccuWeather by 2008 would tell a manufacturing facility in 
Mississippi, a thousand miles away, 21 minutes in advance, that 
a tornado was headed right at it and that they needed to 
shelter their people and that the private weather warning would 
save 88 lives in a single electronic message, it would have not 
been believed, but it and similar situations have happened now 
repeatedly.
    The government is uniquely positioned to ensure and enhance 
the provision of weather data and the issuance of warnings for 
the public aimed at the protection of life and property. These 
activities require research and development, transfer of 
knowledge between government agencies and the private sector, 
and this is needed with regard to advanced radar technologies, 
aerial observation systems, high-performance computing 
networks, advanced forecast modeling and other government-
appropriate activities. We all need to protect this core 
functionality and the research that keeps the entire American 
weather enterprise ahead of the curve.
    Of special focus during Superstorm Sandy was the ECMWF, so-
called European model, which did a better job at some points in 
the storm track than U.S. models did. This gap presents issues 
from an economic safety and national security standpoint. 
Relying on other countries for better weather models places 
America in a weak and subservient position.
    Weather research and development and the creation and 
operation of core infrastructure remain a matter of national 
government urgency, which the Weather Forecasting Improvement 
Act will help to address. Thank you for your time.
    [The prepared statement of Mr. Myers follows:]

    [GRAPHIC] [TIFF OMITTED] T1196.008
    
    [GRAPHIC] [TIFF OMITTED] T1196.009
    
    [GRAPHIC] [TIFF OMITTED] T1196.010
    
    [GRAPHIC] [TIFF OMITTED] T1196.011
    
    [GRAPHIC] [TIFF OMITTED] T1196.012
    
    [GRAPHIC] [TIFF OMITTED] T1196.013
    
    [GRAPHIC] [TIFF OMITTED] T1196.014
    
    [GRAPHIC] [TIFF OMITTED] T1196.015
    
    [GRAPHIC] [TIFF OMITTED] T1196.016
    
    [GRAPHIC] [TIFF OMITTED] T1196.017
    
    [GRAPHIC] [TIFF OMITTED] T1196.018
    
    [GRAPHIC] [TIFF OMITTED] T1196.019
    
    Chairman Stewart. Thank you, Mr. Myers. I appreciate that.
    Mr. Kirchner.

                TESTIMONY OF MR. JOHN KIRCHNER,

                      PRESIDENT, GEOOPTICS

    Mr. Kirchner. Chairman Stewart, Ranking Member Bonamici and 
distinguished Members of the Subcommittee, it is indeed the 
first time I have been to a hearing such as this, and it is a 
privilege for me to be present here today and provide you 
testimony in the absence of my colleague and our CEO, Vice 
Admiral Conrad Lautenbacher, former NOAA Administrator. The 
admiral sends his regards and regrets his inability to be here 
today.
    We also pass on our condolences and thoughts with those in 
Oklahoma as well.
    The U.S. weather forecasting capabilities are in need of 
repair and attention not solely because of technical 
shortcomings, inadequate computing power, or deficient weather 
models but also because of the explosive growth in the cost of 
acquiring critical weather data from satellites and the 
resulting significant delays in new satellite programs. The 
traditional methods for the collection of satellite data 
effectively block new instruments in more potent, lower cost 
and proven data sensing instruments. The net effect is damaging 
our Nation's ability to keep pace in weather observations and 
predictions. A transition of the weather data acquisition 
community to 21st-century methods, both technical and economic, 
is overdue and our weather-dependent economy depends on it.
    The genius of American innovation and initiative has had 
technical and market solutions to the weather data crisis at 
the ready for many years. As analogs, a few working cases from 
related sectors already exist. At NASA, instead of operating a 
fleet of costly space shuttles, NASA has contracted with the 
private sector for its payload needs and works cooperatively 
with other governments. The commercial satellite-based 
communications industry provides the government 80 percent of 
its bandwidth globally. The commercial satellite-based imagery 
industry also provides government much of the imagery outside 
of the intelligence community application.
    With these analogs in mind, the focus would be better 
placed on achieving data quality, accuracy and excellence from 
wherever that data may come rather than necessarily owning that 
data infrastructure. The added irony is that the costs of 
technologies of every kind have plummeted over the last 20 
years except not seemingly in the wider space domain. 
Tragically, the benefits of mobile and miniaturized 
technologies that we all carry in our pockets are seemingly 
sheltered from the critical space mission of forecasting 
weather.
    GeoOptics, our company, will advance a small satellite 
cellular-like observing model that starts with a GPS radio 
occultation. We believe an integrated private company can 
deploy such systems for a fraction over current cost to 
government. GeoOptics working with private-sector partners and 
the science community can realize uncommon efficiencies to 
deliver path-breaking science speedily at bargain prices for 
the public good and lower government's cost for satellite 
weather data.
    We want to emphasize that today, our government and, as a 
consequence, our economy and citizens, is facing a weather data 
crisis that can be relieved almost immediately through 
procurement reform that would unleash the resourcefulness and 
the ingenuity of American private enterprise. In doing so, the 
government will foster a vibrant and innovative free market in 
satellite weather data, creating a new weather data economy 
that will be supported by weather data security that will once 
again stock our shelves with the best possible weather products 
and services.
    In sum, we highlight some of the following comments 
regarding the bill and general recommendations. In section 3 
regarding forecasting innovation, it mentions little regarding 
the general principal of the role of commercial private sources 
of innovation or the potential role of public-private 
partnerships; it could. Section 6 regarding OSSEs does not 
mention the potential role of the private sector or scientific 
university sources of research to support these efforts, which 
it also could. In section 8, we believe that overall 
procurement reform is needed. Elements of this reform could 
include shift the focus of Federal agencies and users away from 
the ownership of weather data infrastructure, open competition 
to acquire the best, most effective and lowest-cost efficient 
data. Government could articulate--should articulate and 
implement procurement reform by creating new performance-based 
pay-on-delivery data purchase procurement models that enable 
Federal agencies to immediately contract for services they need 
now from private companies that can provide them. This approach 
will energize capital for private-held companies and aid in 
rapid deployment of needed product and services. Establish 
specific programs within NOAA and the Air Force and possibly 
other agencies with budget authority beginning in Fiscal Year 
2015. We recommend satellite data purchase line items of $10 
each for NOAA and Air Force in 2015, growing to $50 million for 
each by 2020 accompanied by RFQs and/or BAAs soliciting 
proposals.
    These recommendations and actions are necessary to ensure 
that the United States is never again lagging behind any 
country or consortium of countries in weather prediction or 
forecasting. Opening up the government through changes to 
procurement to very economical, proven and reliable data 
sources that meet the standards and specifications of NOAA, Air 
Force and other users will be the act that infuses innovation 
and creativity into our Nation's weather enterprise. The 
results of this change to the weather enterprise will not only 
enhance public safety through better forecasting but will also 
feed our economy and society with an important source of jobs 
and help participants in our economy manage vital risk.
    Additional examples of GeoOptics' efforts in a small 
satellite cellularized world are available on our Web site. 
Admiral Lautenbacher and I will be happy to provide any follow-
up comments needed by the Subcommittee. I will be happy to 
answer your questions. Thank you.
    .The prepared statement of Mr. Kirchner follows:]

    [GRAPHIC] [TIFF OMITTED] T1196.020
    
    [GRAPHIC] [TIFF OMITTED] T1196.021
    
    [GRAPHIC] [TIFF OMITTED] T1196.022
    
    [GRAPHIC] [TIFF OMITTED] T1196.023
    
    [GRAPHIC] [TIFF OMITTED] T1196.024
    
    [GRAPHIC] [TIFF OMITTED] T1196.025
    
    Chairman Stewart. Thank you, Mr. Kirchner. I thank the 
witnesses again for your testimony, for your dedicated service 
to our Nation. I remind Members that Committee rules limit 
questioning to five minutes, and the chair will at this point 
open the round of questioning.
    Before I do, I ask unanimous consent to recognize 
Representative Bridenstein. Without objection, so ordered.
    The chair now recognizes himself for five minutes for 
questions.
    I think your testimony illustrates something that I pointed 
out in my opening comments, and that is that we can do better, 
and the innovation and the technology development that your 
companies represent is encouraging to us. You know, I have done 
some scary things in my life. I was a military B-1 pilot for 
many years. I do a lot of rock-climbing. Heck, I taught six 
teenagers how to drive. But I have never been as scared as I 
was one night in Texas when we lived in the plains of Texas and 
a storm around us and to hear the tornado warning siren go off. 
It is a terrifying and helpless feeling because there is really 
not much you can do other than pray that the storm misses you 
and jump in the bathtub, which isn't very comforting actually.
    Mr. Myers, you mentioned the 16-minute warning that we had, 
and 16 minutes is significant, but I would ask, you know, what 
is our goal? How many minutes could we achieve? How many hours 
could we actually be able to provide warning? And I ask that 
hypothetically, but I would like you to address it if you could 
in your answer. And then what technologies will allow us to do 
that? And then I would like to follow up with Superstorm Sandy 
if I could, recognizing that the technologies for tornado 
warning is quite different than for hurricane warnings. So if 
you could, either one of you, what is a realistic goal for us 
in providing warning to people and what technologies will help 
us get to that?
    Mr. Myers. Well, I would suggest in looking at hurricanes 
and looking at tornados, there is an interesting comparison. 
Because we can see hurricanes, because they are large and they 
move relatively slowly over large land and sea areas, we can 
evacuate people. In fact, the prime objective is to determine 
the best path and get people out of the way, and we see news 
stories all the time of people who decided they were going to, 
quote, ride out the storm, and we think that is foolish.
    With regard to tornados, we do the opposite. We expect 
people to ride out the storms in their bathtubs. That is not 
acceptable. The only reason that that is the case is because we 
cannot yet scientifically determine far enough in advance the 
strength, the exact path and location of where a tornado is 
going to form and where it is going to go. What we need to 
strive for is having sufficient lead time so that people can 
get out of the way. If you are not there, you cannot get hurt. 
We can't stop the buildings from being destroyed. What is that 
lead time? I don't know, but it seems to me, you know, an hour, 
two hours, plenty of time for people to get out of the way. The 
science is not there. I don't know how we are going to get it 
there. I think that is what research is required to do.
    Chairman Stewart. Mr. Kirchner, do you have anything to add 
to that?
    Mr. Kirchner. Sure. I am probably not in the best position 
to answer what happens, giving a warning minutes before a 
storm. The technology that we work with is in the polar-
orbiting, I will call it the longer-term forecast realm. But I 
think within a portfolio of capabilities and the ability to do 
things faster, irrespective of whether you are right before the 
storm or days before the storm, the kinds of technologies that 
we are working with have been proven to, in the example of GPS 
RO, which is the technology that we are first and foremost 
focused on. There are studies that show that a portfolio of GPS 
RO observations can help four days in advance. It can give you 
eight hours of additional time ahead of existing methods of 
forecasting--eight hours. If you go out 8 days, it can help 
with 15 hours of additional time. Now, that is on the long end, 
but I think within a portfolio of predicting and planning for 
severity and weather patterns, anything we can do to be 
efficient and faster at any part of that time horizon is going 
to be extremely helpful to weather forecasters.
    Chairman Stewart. Mr. Myers, I would like to come back to 
you if I could and just back up what we started to talk about. 
You know, knowing that technology is emerging and that we can't 
predict exactly until we test it and deploy it. With the 
current technology that you know as under development or being 
tested, is it reasonable to say that we could, say, double the 
warning time from 16 to, say, 30 minutes, give people a half-
hour or more than that even?
    Mr. Myers. I think we could, and in fact, you know, the 16 
minutes was in advance of when that storm actually touched 
down. People on the far end had more warning because it was on 
the ground and people knew it was coming. But as you can see, 
even 30 minutes, which was the case at the far end, is not 
enough, and people don't know what to do. It is interesting 
because in our business, I mentioned about a plant in 
Mississippi that we protected, and we do this all over the 
country. But we have specific sites that we can forecast for 
with regard to where a tornado was moving on a path. You can't 
do that publicly because you have large communities, and people 
don't all have shelters and places to go. So there needs to be 
enough lead time. You can probably double with improvement on 
current technology quickly. The lead time has increased 
significantly in the last 20 years.
    Chairman Stewart. Okay. Thank you. I am a little bit over 
my time. Thank you to both of you and to the Ranking Member.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
for your testimony.
    Mr. Kirchner, you spoke specifically about the bill, so I 
am going to ask this question to you, but if Mr. Myers wants to 
weigh in, that is great too. Section two of the legislation 
makes weather-related activities the top priority in the 
planning and management of programs within all relevant line 
offices. So which of the six NOAA line offices would you 
consider to be relevant?
    Mr. Kirchner. That is a level of detail regarding the 
structure that I am not acquainted with. I am still relatively 
new to this industry. I have been in this position for about 6 
months. I think the portfolio that we address as a company is 
one of weather data, data that serves the operational weather 
community, the space weather community as well as the climate 
community, and to the extent that we can help our customer 
balance and address those needs, we will respond to that as a 
service company.
    Ms. Bonamici. Thank you. Mr. Myers, do you have any opinion 
about which of the six NOAA lines offices would be relevant and 
would have to prioritize weather-related activities under the 
legislation?
    Mr. Myers. Well, it seems to me the ones that deal with 
weather mostly are the National Weather Service, NESDIS and 
obviously OAR. I know I have seen over time, and I think that 
one of the good provisions in the bill is the need for the 
agencies to cooperate, especially the Weather Service, to make 
sure that they get the kind of research that they think is 
necessary and that there is a connection between the research 
that is being done in OAR that is tighter than perhaps we see 
today.
    Ms. Bonamici. Thank you. One of the concerns that I have, 
and I know I have other colleagues on this Committee who 
represent coastal areas, and in fact, we are having a lot of 
conversations in our Oregon coast about tsunami evacuation. So 
we are talking about how much warning do we need, so that goes 
on in a different context. So my constituents rely on the ocean 
economy for vital jobs in hard-hit coastal areas without 
research done by NOAA's Sea Grant program on invasive species, 
for example, without the work of NOAA's cooperative institutes, 
their livelihoods could be at risk. So if weather forecasting 
is the top priority in every line office, which is what we are 
trying to figure out under the draft proposal, what would 
happen to the climate and oceans and invasive species programs 
and all the other work that NOAA does. I just wanted to pose 
that question because there is a broad mission at NOAA, and we 
need some clarity about weather-related activities being the 
top priority in all relevant line offices.
    I have another question for both of you. The OAR, Office of 
Atmospheric Research, which is the subject of much of this 
bill, has responsibilities that range well outside of weather 
research. They are also the lead on climate mitigation and 
adaptation. They do important work on oceans, Great Lakes, 
invasive species. So some have commented that the division 
between the weather forecasters and the research done at NWS 
and the research done at OAR leads to the OAR doing work that 
has no utility for the forecasters. So how do you view the 
proposal that the weather research be pulled out of OAR and 
moved to NWS to consolidate all of the weather work in one 
place? Would you support that?
    Mr. Myers. Anything that could improve the way in which the 
research is conducted as it relates to the critical needs of 
improving forecasts to protect life and property I would 
support. Whether that is the best division, I can't sit here 
and tell you, but things that move in that direction, I think, 
are useful.
    Ms. Bonamici. Mr. Kirchner, do you have an opinion if the 
weather research be pulled out of OAR and moved to NWS?
    Mr. Kirchner. Well, I will echo some of what Mr. Myers just 
said. From an organizational perspective, it is about being the 
most effective and efficient in terms of structure. I can't 
speak to that in terms of how NOAA should operate in that 
regard. I think the most--the thing that I would say is that 
there are different functions that the organization plays out. 
There is operational weather, which has heavy emphasis coming 
from NWS. We are supportive of all the areas of the weather 
enterprise that our data and other forms of data will support.
    Ms. Bonamici. Thank you. One more quick question. Section 4 
directs the Assistant Administrator of OAR in coordination with 
the Assistant Administrator of Weather Services to issue a plan 
to restore U.S. leadership in weather modeling prediction and 
forecasting. That plan is supposed to be issued within 6 months 
of passage and then annually. Now, I mentioned in my opening 
statement two reports that the National Academy of Science has 
done, other reports that have recently been done, what National 
Weather Service, for example, worked for more than a year on 
such a plan. So do we need another study? Do we need it 
annually? If we need another study, why should the Assistant 
Administrator be in charge of it? Mr. Kirchner? Oh, I see my 
time is expired, but if you could do a brief response?
    Mr. Kirchner. Again, I will just, not dissimilar to what I 
said earlier, that structure and how to organize oneself to 
meet these needs is an area that I am not going to be able to 
speak wholly to. We just would look for the best direction as a 
customer to give the market----
    Ms. Bonamici. Thank you, and I see my time is expired. 
Thank you.
    Chairman Stewart. Yes, thank you. And gentlemen, we 
recognize that you are not experts on NOAA organization and 
structure, and that is why we look forward to hearing them from 
their representative at some time in the future.
    Okay. We now recognize Mr. Rohrabacher for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I 
remember when I was about six or seven years old and my family 
came from North Dakotato visit my mother's sister. It was very 
dark--there was a storm--and the radio said there was a tornado 
that might be happening that night. I recall that we felt 
absolutely helpless and we had no idea. We crawled down--this 
was into a cellar where my aunt had all these little jars of 
things that she had made, jellies and jams and things. We spent 
the night in this cellar underneath the floor, and we had no 
idea where were the tornados, how close they were, but we knew 
there were tornados. There were tornado warnings out there on 
the radio. And we have advanced so dramatically since then. 
However, it is--we also sat through Hurricane Hazel back in the 
1950s. My dad joined the Marine Corps and we lived on a Marine 
base down in North Carolina. In fact, we went through two 
hurricanes at the same year, I remember. It was pretty 
incredible.
    Gentlemen, there is all this talk about the weather getting 
worse than it used to be. Is that experience from your 
companies and your perspectives? You are around weather all the 
time. Do we have worse weather now? Is Sandy so much worse than 
Galveston, as you mentioned, in 1900, which was a horrible loss 
of life, or are we just more aware of the weather now?
    Mr. Myers. Well, Mr. Rohrabacher, I am not sure if I can 
answer that. I know my grandfather always told me that the 
winters had gotten much milder, that when he was a boy they 
were much worse. I think you are thinking of Hurricane Hazel in 
1954 and probably Connie and Diane in 1955.
    Mr. Rohrabacher. Yes.
    Mr. Myers. And clearly, when we see events like Sandy and 
we see an event like Moore, Oklahoma, we conclude that things 
are getting worse because where we are and what we see tends to 
influence us, I think, the most. I don't know that anyone has 
statistics that can demonstrate that is the case, but as I said 
in my talk, America really in a sense has the worst weather in 
the world, and it is so variable, the nature of it, from 
hurricanes to tornados to droughts to what have you, that we 
really need to focus on it, I think more than perhaps we have 
and more than other nations do.
    Mr. Rohrabacher. Well, there has been a lot of talk about 
climate and weather around here, and when I was young, I just 
remember people saying that you can--a lot of people are 
concerned about the weather and talk about the weather but 
nobody does anything about it. Now we are being told that we 
are actually affecting the weather and the long-term climate, 
which some of us are very skeptical about, but whatever it is, 
we do know that weather, for example, in Galveston--how many 
people lost their lives in the Galveston hurricane? Five 
thousand? So we are talking about--the fact is, with modern 
technology and satellite technology, especially space-based 
assets, we have been able to save thousands and thousands of 
lives that otherwise would have been lost, and I think that we 
can be proud that our country has invested in this, and I do--I 
remember, well, just one last note.
    I remember when I first got here, Vice President Gore had a 
meeting with all of the weathermen that he could put together. 
There is a legend about that, that he had them all gathered 
there at the White House for a conference talking about 
weather, and the weathermen were supposed to be talking about 
global warming. But there was a huge storm front that came 
through while they were there. The rain was pouring down, but 
only about two of the weathermen bothered to bring an umbrella 
to the meeting. I don't know what that all indicates, but I 
think that we should pay a lot of attention to the weather. So 
thank you very much.
    Chairman Stewart. Thank you, sir. Mr. Takano, your five 
minutes for questions.
    Mr. Rohrabacher. I would be out there selling umbrellas. 
That is what my job would be.
    Mr. Takano. This is a question for both the gentlemen. As 
we consider how to reauthorize weather research, who would you 
recommend the Committee hear from? We have testimony from you, 
the private firms, representing private firms. What other 
experts or stakeholders should we take testimony from?
    Mr. Kirchner. I would think the scientific community, 
university community in terms of research. I think there are 
models for how other countries look at this domain that may be 
useful to hear from, and I think the wealth of private 
industry--we come from--our two companies come from two 
different parts of the value chain. My company will produce 
some of the most advanced, best weather data on the planet. Mr. 
Myers' company will use that data downstream to inform the 
citizenry and enterprise. There are a variety of people in 
between that could be useful from a private enterprise 
perspective to hear from.
    Mr. Takano. Mr. Myers?
    Mr. Myers. I would agree with that. When you look at the 
American weather enterprise, we always think of it as a three-
legged stool comprised of the government assets, the weather 
industry, in a broad sense as was just described by Mr. 
Kirchner, and the academic and research community, and I think 
it is appropriate to hear from all of those with regard to this 
that they get their viewpoint.
    Mr. Takano. So you do not consider yourself of the academic 
and research community, you are--both of your--the authority 
from which you are able to speak is not academic or research 
oriented?
    Mr. Kirchner. No, I can speak from an authority of sort of 
commercial data service provision, but not the technical 
aspects of satellite delivery and collection of that data.
    Mr. Myers. And we are a weather information company, and we 
don't view ourselves as heavily into the research aspect of 
basic modeling and things of that nature.
    Mr. Takano. But you both have a respect and esteem for the 
research and scientific community, especially those who are 
recognized experts in the field of climate and weather 
research?
    Mr. Kirchner. Indeed. Our company was founded by a 
gentleman by the name of Tom Yunck, who was at JPL for 30 
years. We are engaged as a company with an organization called 
LASP, the Laboratory for Atmospheric Space Physics out in 
Colorado, which is part of the university. So there is no 
question that we are as a company drawing on the very research 
expertise both in the scientific community and in the 
university community to help build our company.
    Mr. Takano. Do you happen to know your founder's view on 
global climate change? Does he take the scientific consensus on 
global climate change seriously or not seriously? Is he a 
skeptic, non-skeptic?
    Mr. Kirchner. I cannot speak to that.
    Mr. Takano. Would you say it is worthwhile to hear 
testimony from NOAA on this bill?
    Mr. Myers. I would think it would be quite necessary and 
appropriate to have the customer who we are dealing with who 
is, you know, involved in this domain, leading the domain in 
the United States to be heard from.
    Mr. Takano. Thank you. I yield back the balance of my time.
    Chairman Stewart. Okay. Thank you. Dr. Broun.
    Mr. Broun. Thank you, Mr. Chairman. Mr. Myers, thank you 
for AccuWeather. I have got my AccuWeather app here on my phone 
and I depend upon it greatly, so thank you for the service that 
you provide.
    Mr. Myers. Glad to hear that. Thank you.
    Mr. Broun. I am a pilot, though I am not currently flying, 
and I am also a hunter and a fisherman, and I like to follow 
you all's weather forecasts and what you have there, but thank 
you very much.
    Dr. Cliff Mass, professor of atmospheric studies, or 
sciences, at the University of Washington recently wrote: ``The 
politicization of climate change--that's hard for a southerner 
to pronounce--also has had a major impact on government 
resource allocation with bountiful funding going into climate 
change research while other areas such as weather prediction 
are poor cousins. How else can one explain that climate 
research gets more than 100 times the computer resources 
provided to weather prediction, with the latter having huge 
benefits for people today. NOAA Administrators have 
continuously pushed the climate agenda while downplaying 
weather prediction. This needs to change.'' And I could not 
agree more.
    Mr. Myers and Mr. Kirchner, do you agree with Dr. Mass's 
position on this?
    Mr. Myers. Well, I know Cliff, and he tends to state things 
rather emphatically. I agree that I think we need a 
reallocation between climate and weather resources. I don't 
know if I can ascribe reasons to why we have an imbalance the 
way we do, and so I am not interested in weighing into a maybe 
quasi-political debate on climate change and the causes of it. 
Whether or not, though, as many who do support the concerns 
over climate change state that weather events have become more 
severe, and I am not saying I agree or I don't agree, but if 
that is the case, that suggests that we really should be 
allocating more resources into looking at what is happening on 
the weather front. And so I think it is perfectly consistent 
with anyone's climate position that more money needs to go to 
weather research, whether it is because there is change that is 
affecting the weather now or those people who believe that 
there isn't, but we still have severe weather issues that we 
have got to address. So I think it is actually something that 
all sides of the political spectrum and the climate area should 
be supporting simply by the very nature of what people believe 
climate is causing.
    Mr. Broun. Mr. Kirchner?
    Mr. Kirchner. I am not intimately, just due to time, not 
that intimately familiar with all the workings of NOAA. What I 
can say from being in this business for six months is that my 
understanding is that the National Weather Service has its 
primary focus to tend to day-to-day weather prediction. I think 
there is a broader question, though, that I think is worth 
talking about: what role does weather prediction in the short 
term, medium term or long term play in terms of a strategic 
role in our society and economy? Ultimately we believe that 
weather is of strategic interest to supporting our economy, 
industry, infrastructure; and our company's response to that 
broad belief has developed, and will continue to develop, 
products and services that will address the day-to-day 
operation of weather interests, which are forecasting now to 
the next 10 days and beyond, to space weather. Space weather is 
that weather that is out in the ionosphere, which is further 
from the ground but deals with the sun ejecting coronal mass, 
and indeed climate. Our particular technology, GPS RO, is both 
for operational weather and for climate application, is 
absolute in its establishment of temperature, water pressure 
and water vapor--air pressure and water vapor. It is unique. It 
does this in such a way that calibrates all other forms of data 
for both long-term climate application and operational weather, 
and our focus is on providing a suite of those capabilities, 
whether you are talking about the short term or the long term.
    Mr. Broun. Well, my time expired. Thank you, Mr. Chairman, 
but I agree with Dr. Mass. We have got to put more funds on 
weather research than we are on climate change. I think we are 
allocating those funds in an improper way. Thank you, Mr. 
Chairman.
    Chairman Stewart. Thank you, Dr. Broun.
    A vote has been called, and in order to provide all Members 
time to ask their questions, I would like to ask the witnesses 
if they would make themselves available after a short recess?
    Mr. Myers. Yes.
    Mr. Kirchner. Yes.
    Chairman Stewart. Thank you. That being the case then, the 
Committee will recess subject to the call of the chair, and 
without objection, so ordered. The Committee stands in recess.
    [Recess.]
    Chairman Stewart. The Subcommittee on Environment will come 
to order.
    To the witness panel, thank you for bearing with us as we 
had other obligations there with our vote, and unfortunately, 
we have lost some of the Members who wanted to have the 
opportunity to ask you questions, so we remind them, as other 
Members, that they can always submit written questions, and if 
we do, we would appreciate your response within a two week 
period. We now turn to my colleague, Mr. Weber from Texas, for 
his five minutes of questions.
    Mr. Weber. Thank you, Mr. Chairman. I really don't know 
exactly where to begin. My wife and I have this conversation 
from time to time, a good job to have would be a weather 
forecaster because you can be wrong so much of the time and 
still get paid. So I want to ask you guys really about your 
satellite systems, if you will, some of the more technical 
aspects, I suspect.
    First of all, let me get into the monetary side of it 
maybe. Are either of you aware of competition from foreign 
companies, I am talking about from foreign countries, where 
they could come in and put up a satellite or a system like an 
AccuWeather where they can do the kinds of things that we do? I 
guess what I am really driving at is, what is the pressure, 
what kind of pressure is there on you all to be your best and 
do your best? Is there pressure in the marketplace?
    Mr. Kirchner. I will certainly respond to that. Depending 
on what industry we are talking about--I actually come out of 
the communication satellite world where there is a lot of 
global pressure and global competition that overlaps regions. 
In the weather domain, so far as I have seen, there is less 
pressure per se coming for satellite systems. They tend to be 
over particular regions or particular countries, especially the 
geosynchronous kind that are 22,000 miles away that are staring 
at a particular region. The polar orbiting systems, the lower 
earth orbit systems that cover the globe, to my knowledge, 
there are certainly other countries or consortium that have 
those kinds of systems the Europeans have those kinds of 
satellites.
    What we would love to see more of, frankly, is intense 
competition, intense commercial competition, not state funded 
necessarily but privately funded, and that is part of what my 
company is here to talk about is how do--in this world, how do 
we evolve to a model where the weather satellite community is 
privately funded, not necessarily on the balance sheets of the 
taxpayers. And we are looking for, hopeful that our customer 
can migrate to a world of looking to commercial provision of 
services to do that. Today there is a data buy provision. There 
are data buy policies that exist but those data buy policies 
within NOAA have to do with buying something that exists today. 
My company has a system that it is planning to deploy, which 
means my company needs to go to the marketplace, raise capital, 
talk to customers about something that we need to start 
building today that won't be available just due to technology 
for 18 to 24 months. What we are ultimately looking for are 
ways to change the procurement approach that allow us to get 
contingent commitments to say I will take the data that you are 
going to provide that meets the specifications of NOAA or Air 
Force or other agencies but give that commitment today so that 
we can begin to build our systems now. That would feed 
competition certainly in the United States. I am sure--we 
ultimately like competition. We want to deliver the best 
possible service on a highly competitive basis and we believe 
that we will do that if we have that kind of procurement 
structure in place.
    Mr. Weber. Mr. Myers?
    Mr. Myers. AccuWeather is really a downstream user of 
satellite information, and we are more than happy to see 
competition in the area. Right now we receive satellite 
information mostly from government and government consortiums 
around the world including, of course, the U.S. satellites 
which we read directly. The weather industry itself in the 
United States is very competitive, and worldwide, that is true 
as well. There are a number of robust weather companies in 
Korea, in China, in Japan, and in Europe at this point, and we 
compete with them on a worldwide basis. So I think the 
competitive landscape is good. I think it is a huge advantage 
that the United States has, though, that the American weather 
industry is really ahead of the rest of the world and some of 
the things that we are talking about in terms of enhanced 
research, I think we should realize get leveraged in a very 
great way because there is such an industry. So it does not 
only benefit the government and the ability for the government 
to issue warnings, but it benefits all those downstream who can 
make use of the information, the modeling and what have you to 
provide specialized services and even general public services 
on Web sites and mobile devices and so forth to the public.
    Mr. Weber. Okay. I see I am out of time, Mr. Chairman. I do 
have other questions. Are you going to round two hopefully?
    Chairman Stewart. No, Mr. Weber, we actually don't 
anticipate doing that, but you are free to take as much time if 
you need additional time.
    Mr. Weber. Well, thank you. Let me ask this question then. 
So having said that about the pressure to be as good as you can 
be and looking forward to see, you know, what kind of policies 
we can put into place to make sure the taxpayers are getting 
the most bang for their buck, a couple of questions. Number one 
is more technical in nature about the ability of a satellite to 
look out into the--if you are looking at a hurricane that is 
forming over in the Atlantic and coming off the Atlantic--I 
mean the African coast, for example, what kind of time degree 
of predictability is there? Can you predict with any degree of 
certainty three days, five days, seven days? I guess Mr. Myers.
    Mr. Myers. It depends on the weather regime that is 
occurring at that particular time. Some storms are more 
predictable than others as a result, so I can't give you a 
definitive answer to that.
    Mr. Weber. Can you give me a window? Is it three to five 
days? Is it one to three days?
    Mr. Myers. Well, the further out you go, the bigger the 
cone. We have all seen those cones at the Weather Service and 
the weather companies.
    Mr. Weber. But surely you have got statistics, and that was 
my follow-up question. How far back does your data go to say 
that we have had a degree of success in predicting these 
weather events by 30 percent, 60 percent, 90 percent going back 
as far as ten years or 20 years?
    Mr. Myers. There are statistics that do go back that far, 
and generally they indicate that the predictability has 
increased significantly, that the cones have narrowed. The 
accuracy going out has increased. I don't have those statistics 
here with me to refer to. But they have certainly improved 
significantly.
    Mr. Kirchner. What I might add is that as I said earlier, 
the technology world that we are in is predominantly about 
looking, evaluating, gathering data that is going to tell you 
what is going to happen. Other technologies such as 
geosynchronous satellites tell you what--really focus on what 
is happening right now and near-term warnings. Two examples, 
one I mentioned earlier and the other one I will give in 
addition. The technology that we work with is GPS RO, radio 
occultation. It has been proven or has been studied within NOAA 
as well as other organizations that we can--that data can tell 
you four days out that something is going to happen eight hours 
sooner. We can tell you eight days out that we can give you 15-
hour additional heads-up on a hurricane, as an example, or 
severe weather that might be coming. So those hours are 
precious, absolutely precious to the forecast community to 
predict what is going to happen.
    The other example that I would give, which if I had a 
camera or a picture I could show you, is that the GPS RO data, 
looking back at Hurricane Ernesto back in 2006. This was done 
by UCAR. It actually visibly shows in simulation where with GPS 
RO data, you can see a storm that without it you could not see 
54 hours, 78 hours and 102 hours. So there is actually 
mechanisms, and this technology does this, that enables with 
other data--it is not alone, it is with the other suite of data 
sources we have--but with GPS RO data, you can see things 
further in advance that you wouldn't have been able to see 
without it, and again, that is about bringing forward the 
ability to see and forecast that in a portfolio of analyzing 
weather you would want to grab every hour and every minute you 
could.
    Chairman Stewart. Recognizing the time is short now, Mr. 
Weber, are you----
    Mr. Weber. Thank you for your indulgence, Mr. Chairman.
    Chairman Stewart. And since we had additional time over 
here, to the minority side, would you request any additional 
time for further questions?
    Ms. Bonamici. No, thank you, Mr. Chairman.
    Chairman Stewart. Okay. Thank you.
    To the witnesses, again, thank you for your valuable 
testimony, and to the Members for their questions. The Members 
of the Committee, as I mentioned previously, may have 
additional questions for you as witnesses, and we ask you to 
respond to those in writing, if that is the case. The record 
will remain open for two weeks for additional comments and 
written questions from Members.
    I would also like to note that the Ranking Member, my 
colleague from Oregon, Ms. Bonamici, and I have had an 
opportunity to discuss the minority's request for a House Rule 
XI hearing. We have agreed to hold a subsequent hearing with 
two witnesses from both the minority and the majority parties. 
I look forward to inviting a representative from NOAA as one of 
our witnesses to be a part of the witness panel, and we will 
work with all parties to schedule this most important second 
hearing on this topic at the nearest available time. And as a 
result of that agreement, the minority has agreed to withdraw 
their request for a Rule XI hearing.
    With that, the witnesses are excused and this hearing is 
now adjourned. Thank you.
    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by

[GRAPHIC] [TIFF OMITTED] T1196.026

[GRAPHIC] [TIFF OMITTED] T1196.027

[GRAPHIC] [TIFF OMITTED] T1196.028

[GRAPHIC] [TIFF OMITTED] T1196.029

[GRAPHIC] [TIFF OMITTED] T1196.030

[GRAPHIC] [TIFF OMITTED] T1196.031

Responses by

[GRAPHIC] [TIFF OMITTED] T1196.032

[GRAPHIC] [TIFF OMITTED] T1196.033

[GRAPHIC] [TIFF OMITTED] T1196.034

[GRAPHIC] [TIFF OMITTED] T1196.035

[GRAPHIC] [TIFF OMITTED] T1196.036

[GRAPHIC] [TIFF OMITTED] T1196.037

[GRAPHIC] [TIFF OMITTED] T1196.038

[GRAPHIC] [TIFF OMITTED] T1196.039

[GRAPHIC] [TIFF OMITTED] T1196.040

[GRAPHIC] [TIFF OMITTED] T1196.041

[GRAPHIC] [TIFF OMITTED] T1196.042

[GRAPHIC] [TIFF OMITTED] T1196.043

[GRAPHIC] [TIFF OMITTED] T1196.044

[GRAPHIC] [TIFF OMITTED] T1196.045

                              Appendix II

                              ----------                              


                   Additional Material for the Record



                Revised submission from GeoOptics, Inc.,
                       submitted by Mr. Kirchner

[GRAPHIC] [TIFF OMITTED] T1196.046

[GRAPHIC] [TIFF OMITTED] T1196.047

[GRAPHIC] [TIFF OMITTED] T1196.048

[GRAPHIC] [TIFF OMITTED] T1196.049

      GeoOptics, Inc. closing comments, submitted by Mr. Kirchner

[GRAPHIC] [TIFF OMITTED] T1196.050

[GRAPHIC] [TIFF OMITTED] T1196.051

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
